<html>
<title> - FREIGHT MOVEMENT: ASSESSING WHERE WE ARE NOW AND WHERE WE NEED TO GO</title>
<body><pre>[Senate Hearing 115-201]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-201

  FREIGHT MOVEMENT: ASSESSING WHERE WE ARE NOW AND WHERE WE NEED TO GO

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON TRANSPORTATION 
                           AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 20, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-591 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                  JAMES M. INHOFE, Oklahoma, Chairman
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California
JOHN BARRASSO, Wyoming (ex officio)  THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 20, 2017
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     6

                               WITNESSES

Spear, Chris, President and CEO, American Trucking Associations..     7
    Prepared statement...........................................    10
    Responses to additional questions from Senator Carper........    31
    Response to an additional question from Senator Harris.......    38
    Responses to additional questions from:
        Senator Markey...........................................    40
        Senator Fischer..........................................    44
Policinski, Mark, Chief Executive Officer, Ohio-Kentucky-Indiana 
  Regional Council of Governments, and member, Coalition for 
  America's Gateways and Trade Corridors.........................    48
    Prepared statement...........................................    50
    Responses to additional questions from Senator Carper........    58
Parker, Tim Jr., Chairman, Parker Towing Company, and Chairman, 
  Board of Directors, Waterways Council, Inc.....................    61
    Prepared statement...........................................    63
    Response to an additional question from:
        Senator Duckworth........................................    69
        Senator Fischer..........................................    70
Thomas, David M., Deputy Executive Director of Logistics and Port 
  Operations, Maryland Department of Transportation, Maryland 
  Port Administration............................................    71
    Prepared statement...........................................    73
    Responses to additional questions from Senator Whitehouse....    82

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso, Carper, Inhofe, and Cardin from the 
  American Association of Port Authorities, January 2, 2018......   106

 
  FREIGHT MOVEMENT: ASSESSING WHERE WE ARE NOW AND WHERE WE NEED TO GO

                              ----------                              


                      WEDNESDAY, DECEMBER 20, 2017

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(Chairman of the Subcommittee) presiding.
    Present: Senators Inhofe, Cardin, Capito, Boozman, Fischer, 
Moran, Ernst, Sullivan, Shelby, Whitehouse, Gillibrand, 
Duckworth, Harris, Barrasso, and Carper.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    We are honored to have some great witnesses today, and I 
will save the introductions. I know there are a couple of 
introductions that will be made from up here.
    This morning we will go ahead with our opening statements--
myself and Senator Cardin--and then we are honored to have both 
the Chairman and the Ranking Member of the whole Committee 
here, so we will have Senator Barrasso, Senator Carper.
    Then I understand, Senator Cardin, you have an introduction 
to make also.
    Senator Cardin. Yes.
    Senator Inhofe. All right, we will do that.
    Let's recognize first Senator Carper, because he is going 
to be coming back and doing his a little bit later.
    Senator Carper. Just very briefly. I welcome this important 
hearing, and I want to thank our Chair and Ranking Member for 
pulling this all together and giving us a chance to say 
something. I have a statement I would like to ask unanimous 
consent that it appear in the record. If I have a chance to 
come back and give it live later this morning, I will do that.
    But again, it is good to see you all. Thank you for joining 
us. This is important stuff.
    Senator Inhofe. Thank you, Senator Carper.
    I want to thank all of you for being here today. I would 
like to thank my friend, Ranking Member Cardin and his staff 
for their help in getting this hearing together.
    You know, I have taken count. I think the last one, other 
than you and me, that came in the 100th Congress is retiring 
this year. That leaves you and me.
    Senator Cardin. I hope that is not a message.
    [Laughter.]
    Senator Inhofe. All right. But anyway, we did come in. We 
spent a lot of time together, working together in a bipartisan 
way accomplishing things, and we enjoy continue that. Looking 
forward to working with my colleagues on this Committee as we 
work together in legislation that will benefit the users of our 
transportation networks and the economy.
    Since President Trump has been in office, we have seen a 3 
percent growth in the economy. We have added over 2 million 
jobs, and the consumer confidence has skyrocketed. However, the 
economy will only continue to grow if our infrastructure is 
maintained and expanded to meet our future needs.
    In 2015 over 18 billion tons of freight, worth $19 
trillion, moved over our highways, railways, waterways, and 
through the air. These numbers are only expected to grow, with 
an estimated 25 billion tons of freight movement by 2045, worth 
an estimated $37 trillion.
    Yet when freight is delayed on congested highways, diverted 
around structurally deficient bridges, or awaiting movement at 
our ports and on our waterways, an estimated $27 billion 
annually in increased costs are borne by businesses, raising 
prices on consumer goods. The more delays we see, the further 
behind we will become.
    According to the World Economic Forum, the U.S. ranks 12th 
in overall infrastructure quality, and the American Society of 
Engineers, which we have heard several times from, scored our 
infrastructure as a D+ earlier this year, estimating that we 
need to spend close to $2 trillion in the next 10 years to 
improve all of our infrastructure and our overall economy.
    In order to address this need, in the last Congress we 
passed the FAST Act, which authorized $305 billion over 5 
years. The FAST Act also established a $6.3 billion freight 
formula program for States to invest in freight projects on the 
National Highway Freight Network, and that is the first time 
that that had been done. It has created a $4.5 billion over 5 
years grant program to improve the safety and movement of 
freight. Though the FAST Act was the largest transportation 
authorization in a decade, we have more work to be done before 
we close the gap between our funding and our needs.
    I am looking forward to hearing from our witnesses today. I 
enjoyed meeting them individually and reminding Mr. Parker that 
we in the State of Oklahoma, our best kept secret is we also 
are navigable.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Senator Inhofe, thank you for 
reminding me how long we have been here. I appreciate that very 
much.
    But Senator Inhofe and I have been friends since we both 
came to the U.S. Congress in 1987, and I do thank him for his 
dedication, his willingness to try to find ways to move things 
forward, particularly on infrastructure. Senator Inhofe has 
been one of our great leaders, so it is a pleasure to work with 
you on this Subcommittee that deals with infrastructure with 
Senator Barrasso and Senator Carper and the members of this 
Committee.
    Today's topic is critically important, Freight Movement: 
Assessing Where We Are Now and Where We Need To Go. This nation 
was built by the fact that we were able to build up an economy, 
and our infrastructure was critically important for us being 
able to develop that economic strength that we all are so proud 
of and gives an opportunity to so many people.
    The U.S. freight system depends upon the multimodal system 
of infrastructure. Roads are critically important for our 
trucks. Rail is important for our freight moving by rail. 
Yesterday I had a meeting of the Maryland delegation with Mr. 
Foote, the new Acting CEO of CSX, as we talked about freight 
issues, including the challenge we have in Baltimore with the 
Howard Street Tunnel, where you can't double stack. So, it is 
incredibly important that we maintain and strengthen our rail.
    We talked about the waterways, and I am glad that Mr. 
Thomas is here in regards to the Port of Baltimore and the 
importance that is to the movement of freight and our barges, 
our pipelines, and certainly our airports. Our airports are 
becoming more congested, and it is an important part of our 
freight.
    So, Mr. Chairman, over the next 30 years our transportation 
system, which has powered the rise of our nation and enabled 
generations of economic growth, could--could--become a drag if 
we do not pay attention to investing in America's 
infrastructure.
    We already know how many hours a week are wasted in 
transportation through trucks stuck in traffic. Try to get 
through the Washington area on any day. Even on weekends it is 
becoming difficult. Even in the middle of the night. Mr. 
Chairman, I went home yesterday morning, from here to 
Baltimore, and there was some construction, and it took me 
longer than it should have to get home last night to Baltimore.
    So, there is congestion, and we need to do a better job in 
dealing with that. Trucks lose $28 billion in wasted time in 
fuel per year. Twenty-eight billion dollars. So, we have major 
tensions that we have to pay. Our major hub airports face 
severe congestion. Aging locks and dams are raising the cost of 
moving freight and fuel along the inland waterways. Ports need 
dredging and modernization if they are going to continue to 
compete and sustain jobs in our regional economy.
    Transit systems, the estimate is $100 billion of 
maintenance backlog in our transit systems in this country. And 
I can attest to the one here in WMATA and the need for 
maintenance there. The companies that depend upon our nation's 
transportation system, and the millions of workers who power 
these companies will feel these effects.
    A robust multimodal freight transportation system is 
essential. Despite advances--and I really do applaud the 
leadership of this Committee in the FAST Act and MAP-21 that 
provides funding sources for these types of program--we need to 
build upon the prior success of this Committee to provide the 
wherewithal to modernize our infrastructure.
    I am just going to highlight, because, as Ranking Member of 
the Subcommittee, I should at least promote one aspect of my 
State, and since Mr. Thomas is here, let me take that 
opportunity to brag a little bit about the Port of Baltimore 
and the importance it is to our economy.
    We are one of only, I think, four ports on the East Coast 
that has the depth and width necessary to take on the new ships 
that are coming through the Panama Canal. That is an important 
part of our economy. Baltimore has a 50 foot shipping channel 
and a 50 foot container berth. What we are able to do, and I 
can give you a lot of statistics, and I will put it in the 
record, Mr. Chairman, so I don't have to read the entire 
numbers in regards to the Port of Baltimore, but let me just 
point this out.
    Business at the port generates 13,650 direct jobs--direct 
jobs--the Port of Baltimore. More than 127,000 jobs in Maryland 
are linked to port activities. The port is responsible for 
nearly $3 billion in individual wages and salaries, and 
contributes more than $310 million in State and local tax 
revenues.
    So, none of this can be done without a strong Federal 
partnership. We can't do it on our own; we need a strong 
Federal partnership.
    Yesterday we had a long discussion about jobs on the floor 
of the U.S. Senate. We all know that investing in 
infrastructure will not only build the tools necessary so that 
we can grow our economy; it will create the jobs of the future 
that we need to support the people of this nation.
    I look forward to hearing from our distinguished panel, and 
I thank them all for being here.
    Senator Inhofe. Thank you, Senator Cardin.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Carper, I would be happy to defer to you so that 
you don't have to then come back later.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I appreciate your doing that.
    Listening to what Ben just said about the Port of 
Baltimore, just before I leave, I just want to say the top 
banana port in America is Wilmington, Delaware.
    [Laughter.]
    Senator Carper. And my staff was good enough to drop off 
some bananas here so I could have a prop. I also told them just 
jokingly yesterday, I told them we are not only the top port 
for importing bananas, we are also the top port for importing 
prunes. That is not true, but they dropped off this package of 
prunes. I would be happy to share them with my colleagues. 
After the experience of these last few days, we could probably 
all use that. I am not going to say more.
    No, on a serious note, I do want to say this. Last night, 
when I gave my floor statement, I talked about all the 
ingredients that are part of a nurturing environment for job 
creation and job preservation, from access to capital, access 
to foreign markets, world class work force and infrastructure 
done well. Infrastructure, not just roads, highways, bridges, 
not just ports, not just rail, all the above and more, 
broadband and deployment and so forth.
    We have this reluctance to pay for this stuff. We have this 
reluctance to pay for this stuff. And a big part of our 
challenge is to figure out cost effective ways to make these 
investments in ways that leverage non-Federal moneys, State and 
local moneys, private sector moneys.
    And that is our challenge. That is our challenge. And it is 
important, having gone through a tough period of time on tax 
reform, my hope is that when we tackle infrastructure in the 
months to come, that we do it the right way and we do it 
together. It is a great opportunity. If we do that, we will do 
a much better job.
    What did Mark Twain used to say? If we do that, we will 
confound our critics and amaze our friends. So that is what we 
need to do. All right?
    Thanks so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Subcommittee Chairman Inhofe and Ranking Member Cardin, 
before we begin I just want to take a moment and personally 
thank you for holding this oversight hearing on the movement of 
freight on our nation's water and transportation 
infrastructure.
    Our nation's freight transportation network--which includes 
an interconnected network of trucks, trains, aircrafts, ships, 
and barges--moves 55 million tons of goods worth more than $49 
billion each day. In addition, freight supports 44 million 
jobs.
    Seaports and highways are economic engines and vital 
freight gateways to the global marketplace for American 
farmers, manufacturers, and consumers and serve as critical 
infrastructure for the U.S. military. It is, therefore, 
appropriate that this Subcommittee is examining the operation 
of our freight system because the safe and efficient movement 
of goods--both into and out of the United States--is the 
backbone of our economy.
    In my home State of Delaware, the Port of Wilmington has 
the largest dock-side refrigerated complex in North America and 
is the top North American port for imports of fresh fruit--
specifically bananas--and juice concentrate.
    So think of Delaware the next time you are having 
breakfast! Our port also handles automobiles, steel, forest 
products, livestock, petroleum, and other cargo.
    This hearing is coming at a critical time. The amount of 
freight in the U.S. is projected to grow 40 percent by 2045, 
including by 44 percent for truck tonnage and 38 percent for 
water. America's trade volume is also expected to quadruple 
after 2030, with the U.S. projected to export more than 52 
million shipping containers through U.S. seaports each year. We 
must prepare the nation's infrastructure to meet this growing 
demand for the safe and efficient movement of freight.
    As you know, the President has raised the issue of America 
needing to modernize and rebuild aging infrastructure. 
Democratic Senators released a blueprint for addressing 
infrastructure challenges earlier this year. I believe that 
members on both sides of the aisle are supportive of addressing 
our freight infrastructure needs, but before we can really 
understand the scope of the problem and what needs to be part 
of a bill, we need to have discussions such as we are having 
today.
    We must work in a bipartisan fashion to really address 
these concerns and build consensus on a path forward for our 
economy.
    Again, Mr. Chairman, thank you for holding this important 
hearing, and I look forward to hearing from our witnesses.

    Senator Inhofe. Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, thank you, Mr. Chairman.
    Before I introduce Mr. Spear to the Committee, I would like 
to just say a few words about today's hearing.
    This morning the Subcommittee is examining Freight 
Movement: Assessing Where We Are Now and Where We Need To Go. 
Freight is a vital part of America's economy, and I thank 
Chairman Inhofe, Ranking Member Cardin for holding this 
important hearing.
    Everyone benefits from goods being shipped on our roads, 
across our bridges, and through our ports. The freight industry 
allows for American made products to go from the heartland to 
the coasts, and even across the world.
    This hearing will also underscore the need to upgrade and 
maintain our highways and shipping lanes. Addressing America's 
aging infrastructure is a shared bipartisan goal of this 
Committee.
    This year alone, the Environment and Public Works Committee 
has held seven hearings on the importance of modernizing 
America's infrastructure. We have heard testimony on the 
infrastructure needs of both rural and urban communities, the 
new innovative building techniques being used, the value of 
streamlining so that we can cut Government red tape and get 
building projects started and finished faster, as well as the 
success of loan leveraging programs so taxpayers get the most 
bang for their buck.
    President Trump has made fixing our nation's roads, 
bridges, and rails a top priority. In January the 
Administration will outline its broad vision for 
infrastructure. We have a unique opportunity ahead of us. If we 
can pass major infrastructure legislation, we will grow our 
economy and help ensure the health and safety of every 
American.
    So, I look forward to partnering with President Trump and 
members of our Committee as we work to improve America's roads, 
bridges, water systems, dams, and ports.
    I would also now like to introduce Chris Spear, who has 
served as President and CEO of the American Trucking 
Associations since July 2016. Chris is a long time friend with 
extensive Wyoming connections, and I am very pleased that he 
has been invited to offer his expertise at this morning's 
Subcommittee hearing.
    He attended college at the University of Wyoming, where he 
earned his Bachelor's and his Master's degrees; currently sits 
on the Board of Directors for the University of Wyoming's 
Center for Global Studies. He began his career with the Senate 
in 1993, working as a professional staff member for then 
Wyoming Senator Al Simpson. He continued his work under Senator 
Enzi. In 1998 he was nominated by President George W. Bush and 
unanimously confirmed by the Senate as Assistant Secretary of 
Labor for Policy in the United States Department of Labor.
    Chris also served as Deputy Representative for the 
Coalition Provisional Authority in Iraq and was awarded the 
U.S. Department of Defense Joint Civilian Service Medal.
    In 2004 he entered the private sector at Honeywell 
International and then Hyundai Motor Company. In his current 
role as President and CEO of American Trucking Associations, 
Chris leads the ATA's efforts to advocate and educate on behalf 
of the trucking industry. He knows how vital freight 
transportation is to the economy and how States like Wyoming 
depend on an industry that employs upwards of 7 million people 
and is responsible for moving more than 10 billion tons of 
freight annually.
    There is no better expert to discuss how we better move 
America's economy forward.
    Mr. Spear, thank you. We look forward to hearing your 
testimony.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Cardin, I believe you want to introduce one of the 
witnesses.
    Senator Cardin. I am very happy to have David Thomas here 
today. He was named the Deputy Executive Director of Logistics 
and Port Operations for the Maryland Department of 
Transportation, Maryland Port Administration in December 2016. 
But David has been with the port now, I believe, 16 years and 
has a distinguished record and understands all the operations 
of the port.
    His current responsibility includes facility maintenance, 
crane maintenance, terminal operations, cruise operations, and 
intermodal logistics.
    So, we are pleased that he is here. We are pleased by his 
expertise for Maryland, but also, I think he can help us better 
understand the challenges that we have in moving our commerce 
and freight through our ports.
    He received his Bachelor of Science degree from Towson 
University, one of the great schools in Maryland, in 1982 in 
Business Administration. Two children, married, and resides in 
Forest Hill, Maryland.
    Nice to have you here.
    Senator Inhofe. Thank you, Senator Cardin.
    Our other two witnesses that have not been introduced are 
Tim Parker, Jr., Chairman of the Parker Towing Company, 
Waterways Council, Tuscaloosa, and Mark Policinski, Chief 
Executive Officer of the Ohio-Kentucky-Indiana Regional Council 
of Governments.
    So, we are going to start with our opening statements. We 
would ask you to try to confine your remarks to 5 minutes, but 
your entire statement will be made a part of the record.
    So, Mr. Spear, we will start with you and work across.

STATEMENT OF CHRIS SPEAR, PRESIDENT AND CEO, AMERICAN TRUCKING 
                          ASSOCIATIONS

    Mr. Spear. Thank you, Chairman Inhofe, Ranking Member 
Cardin, Chairman Barrasso for the introduction, and members of 
the Subcommittee. We appreciate the opportunity to testify on 
this critical subject.
    We are grateful to each of you for recognizing freight in 
the previous two authorization bills as an important Federal 
responsibility. This has proven necessary, as the freight 
sector will need to move 5 billion additional tons over the 
next decade. That is a 40 percent increase.
    This year alone trucks will move 71 percent of the nation's 
freight tonnage, worth more than $10 trillion. Yet our national 
highway network is rapidly deteriorating, costing the average 
motorist nearly $1,500 a year in higher maintenance and 
congestion expenses.
    Highway congestion also adds more than $63 billion to the 
cost of freight transportation each year. In 2015, truck 
drivers sat in traffic nearly 1 billion hours, equivalent to 
more than 362,000 drivers sitting idle for an entire year. Most 
concerning, in 53 percent of highway fatalities, the condition 
of the roadway is a contributing factor.
    The Highway Trust Fund is projected to run short of the 
revenue necessary to maintain current spending levels by fiscal 
year 2021, creating a huge funding gap that could force States 
to cancel or delay critical projects. The U.S. spends less than 
half of what is necessary to address these needs. As the 
investment gap continues to grow, so too will the number of 
deficient bridges, roads, bottlenecks, and most critically, 
fatalities attributable to inadequate roadways.
    ATA's proposed solution is the Build America Fund. The Fund 
would be supported with a new indexed 20 cent per gallon fee 
built into the price of transportation fuels collected at the 
terminal rack, which would generate nearly $340 billion in new 
revenue over the first 10 years.
    This proposal would stabilize the Trust Fund and resource 
project backlog. However, we recognize that over time the fuel 
tax is a diminishing revenue source. To that end, we encourage 
the Subcommittee to implement a 10 year plan that identifies 
and provides long term stability for the Federal aid program 
with new, more sustainable user fees.
    ATA recognizes that trucks are but one part of the supply 
chain. We rely on our air, water, and rail partners to keep the 
supply chain moving smoothly and efficiently, and we are 
grateful for the resources provided specifically for freight 
projects in recent legislation. We urge you to retain those 
programs and increase funding for freight, while maintaining 
the share currently dedicated to highway projects, 
particularly, freight intermodal connector roads deserve 
dedicated funding, creating greater connectivity between the 
modes and a more efficient and safer movement of our nation's 
freight.
    Finally, Mr. Chairman, I want to state ATA's unequivocal 
support for continuing a strong Federal role in funding and 
overseeing highway improvements. States aren't waiting on 
Congress to act; several have already adopted funding schemes 
that toll Class A trucks only to fund their roads and bridges.
    Now, representing an industry that pays nearly half of the 
tab into the Highway Trust Fund, and is willing and ready to 
pay more, we consider such State schemes as nothing more than a 
fleecing of our industry. Other States have chosen regulatory 
regimes redundant of existing Federal standards, such as 
California's duplicative meal and rest breaks, commonly 
referred to here in Washington as F4A. These burdensome 
barriers are elevating safety risks to the motoring public, 
while lining the pockets of highly inefficient toll booth 
operators and trial lawyers. That is trucking revenue that 
would have been spent on driver pay, training, and purchasing 
safer, more environmentally friendly equipment.
    Federal inaction has allowed States to create a maze of 
added compliance costs that impede our industry's ability to 
grow and support our nation's economy, making State preemption 
a top priority of trucking companies. This is not about States' 
rights. Rhetorical statements in support of devolving 
responsibility to the States fail to acknowledge the Federal 
Government's constitutional obligation to support interstate 
commerce and projects whose benefits extend beyond 
jurisdictional boundaries.
    My written testimony includes GPS heat maps tracking the 
live movement of freight. These illustrations underscore how 
freight isn't a local, State, or even a regional problem, as 
much as today's political rhetoric tries to suggest; it is a 
Federal issue, and one with serious and measurable national 
economic and security implications.
    I applaud this Committee for its razor focus each of you 
bring to these problems. ATA is a committed partner to helping 
each of you and your Senate colleagues produce an 
infrastructure bill in 2018 that Republicans, Democrats, and 
most importantly, the American people can be proud of.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Spear follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    
    Senator Inhofe. Thank you, Mr. Spear.
    Mr. Policinski.

  STATEMENT OF MARK POLICINSKI, CHIEF EXECUTIVE OFFICER, OHIO-
 KENTUCKY-INDIANA REGIONAL COUNSEL OF GOVERNMENTS, AND MEMBER, 
      COALITION FOR AMERICA'S GATEWAYS AND TRADE CORRIDORS

    Mr. Policinski. Chairman Inhofe and Ranking Member Cardin 
and distinguished members of the Subcommittee, thank you for 
allowing me to share my views.
    I am representing both the Ohio-Kentucky-Indiana Regional 
Council of Governments, as well as the Coalition for America's 
Gateways and Trade Corridors. These are diverse groups of 
public and private organizations seeking to increase Federal 
investment in multimodal freight infrastructure.
    OKI, as the metropolitan planning organization for the 
Greater Cincinnati region, has final authority over all Federal 
spending on surface transportation. The region is home to the 
nationally significant Brent Spence Bridge. The bridge is a 
linchpin on the I-75 trade corridor. It is a bridge that 
connects Michigan to Miami, and it carries over $1 billion of 
goods every day. But it is suffering due to structural 
deficiencies and overcrowding. This results in costing around 
$750 million annually in wasted time and fuel. It is a prime 
example of U.S. freight needs.
    The Constitution's commerce clause calls on the Federal 
Government to make investments supporting interstate commerce. 
Seventy-seven percent of all freight crosses State lines, but 
States and localities cannot shoulder investment to improve 
them. I applaud this Committee for prioritizing freight in the 
FAST Act; it is a down payment on our needs. But as we know, 
more is needed to keep pace with a growing global economy. We 
must remember that, as a percentage of GDP, China spends 4 
times what the United States does on infrastructure.
    The FAST Act created a formula program designed to target 
freight investments and improvements. However, the ability of 
formula dollars to fund complex freight projects is limited. 
Recognizing this, the FAST Act created a much needed 
competitive grant program, or INFRA, designed to target large 
freight and highway projects which often span modes and 
jurisdictions.
    Competitive programs encourage applicants to bring forward 
their best ideas, and they frequently incentivize non-Federal 
dollars to get involved. INFRA awarded roughly $800 million in 
fiscal year 2016, and it leveraged $3.6 billion in total 
investment.
    But just because a project is more affordable to the 
Federal Government does not mean it is the most valuable 
investment for a country's economy. Projects should first be 
evaluated on their ability to meet congressionally defined 
program goals. To foster strategic investment, we respectfully 
make five recommendations.
    No. 1, a national vision in investment strategy should 
shape and guide the nation's freight infrastructure system with 
active coordination among States and regions. A focus on 
multimodal freight should be established within USDOT's Office 
of the Secretary to guide policy and programming with a focus 
on nationally significant projects.
    No. 2, provide a dedicated, sustainable, and flexible 
funding source. Investment in the freight network has a much 
larger return on investment than other transportation spending. 
Existing programs available for freight infrastructure, like 
INFRA and TIGER, are vastly oversubscribed. In the first round, 
INFRA sought $13 in requests for every $1 available. A minimum 
annual direct Federal investment of $2 billion above current 
levels is necessary. Congress should also eliminate caps on 
non-highway spending under the freight formula and INFRA 
programs. Freight does not only move on highways. Where public 
benefit is derived, public investment should be made.
    No. 3, successful grant applications must meet merit based 
criteria that prioritize projects with a demonstrable 
contribution to the national freight efficiency.
    No. 4, Congress should oversee the FAST Act implementation 
to ensure investment aligns with congressional intent and there 
is sufficient decisionmaking transparency. Despite Congress's 
development of strong, merit based criteria for INFRA, GAO was 
unable to determine USDOT's rationale for selecting the first 
round's 18 successful projects.
    And last, a partnership with the private sector. Funding 
should leverage private participation and provide the largest 
possible toolbox of funding options. An advisory council of 
freight industry members and system users could assist USDOT to 
foster partnerships with the private sector.
    I thank the Committee for their time and attention to this 
critically important topic.
    [The prepared statement of Mr. Policinski follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
  
    
    Senator Inhofe. Thank you, Mr. Policinski. Also thank you 
for being specific, because you specified five things. This 
Committee is going to have to make some decisions, and I think 
those are excellent suggestions.
    Mr. Parker.

STATEMENT OF TIM PARKER, JR., CHAIRMAN, PARKER TOWING COMPANY, 
   AND CHAIRMAN, BOARD OF DIRECTORS, WATERWAYS COUNCIL, INC.

    Mr. Parker. Thank you, Chairman Inhofe, Ranking Member 
Cardin, and members of the Subcommittee. Thank you for the 
opportunity to testify before you today on the topic of 
``Freight Movement: Assessing Where We Are and Where We Are 
Going.'' I know other witnesses this morning will concentrate 
in their testimony on MAP-21 and the FAST Act, so I will not do 
that. Instead, I will focus on the importance of the inland 
waterways transportation system and potential reforms that 
could modernize this critically important system.
    I currently serve as Chairman of Parker Towing Company. We 
are headquartered in Tuscaloosa, Alabama, and operate 26 
towboats and 340 barges. I am also Chairman of the Board of 
Directors of the Waterways Council, Inc., WCI, which is the 
national public policy organization that advocates for a modern 
and well maintained system of inland waterways and ports.
    The inland waterways transportation system is made up of 
nearly 12,000 miles of commercially active inland waterways, 
including intracoastal waterways. Of this total, nearly 11,000 
miles comprise the fuel tax portion of the system on which 
commercial operators pay a diesel fuel tax that is deposited 
into the Inland Waterways Trust Fund. Users like Parker Towing 
Company successfully advocated in support of raising our taxes 
by 45 percent in 2015 to its current level of 29 cents per 
gallon. This tax currently pays for up to half the cost of new 
construction and major rehabilitation of inland waterways 
infrastructure, principally locks and dams, but also including 
channel deepening.
    At the outset, I would note that after having only one 
order enacted between 2001 and 2013, it is very encouraging to 
see this Committee putting WRRDA bills back on a 2 year cycle 
with the enactment of WRRDA 2014 and WRRDA 2016. I would 
especially like to thank this Committee for passing the 
important policy changes contained in WRRDA 2014, particularly 
the change in cost share policy for Olmsted Locks and Dams. 
This cost share change from 50 percent Inland Waterways Trust 
Fund and 50 percent General Fund, to 15 percent Inland 
Waterways Trust Fund and 85 percent General Fund. This change 
in policy at Olmsted has led to significant improvements in the 
construction timeline and cost of the project.
    At the November 3rd Inland Waterways User Board meeting 
just a few weeks ago, the Corps reported that the Olmsted 
project will be operational next year, perhaps as early as 
June, with full completion now expected in 2022, in both 
instances 4 years ahead of the previously estimated project 
operation and completion dates. In terms of cost, Olmsted is 
now scheduled to be completed approximately $330 million below 
the new estimated cost.
    Also noteworthy, not only did the cost share change help 
Olmsted, it has allowed construction to resume on the Lower 
Monongahela Locks 2, 3, and 4, Kentucky Lock, and Chickamauga 
Lock.
    Finishing Olmsted as quickly as possible comes at a 
critical time for the inland system. Starting in early 
September 2017, locks and dams 52 and 53, which are the locks 
and dams that Olmsted will be replacing, have been experiencing 
repeated failures, causing multiple complete closures of the 
Ohio River. At one point, there were 74 towboats and 842 barges 
waiting to lock through. These recent emergencies vividly show 
that locks and dams built in the 1920s, like locks and dams 52 
and 53, are in critical need of modernization to maintain 
American competitiveness.
    Currently, we have a portfolio of 25 high priority inland 
projects either in construction or waiting to begin 
construction, with a total cost estimated at $8.8 billion. At 
the current rate, many of these projects will not even begin 
their construction in the next 20 years. We would hope the 
Committee will consider the same kind of change for the inland 
waterways that was include in last year's WRRDA for deep draft 
coastal ports. In WRRDA 2016 Congress changed the cost share 
policy for funding the construction of deep draft ports with 
depths of 45 to 50 feet from 50 percent non-Federal project 
sponsor and 50 percent Government to 25 percent non-Federal 
project sponsor and 75 percent Federal Government. By doing the 
same thing for the Inland Waterways Trust Fund, this Committee 
would allow for the inland navigation capital program to remain 
operating at or above the $400 million level that has been 
achieved since the cost share at Olmsted.
    Thank you for the opportunity to be here today, and I look 
forward to participating in this roundtable discussion.
    [The prepared statement of Mr. Parker follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
        
    Senator Inhofe. Thank you, Mr. Parker.
    Mr. Thomas.

  STATEMENT OF DAVID M. THOMAS, DEPUTY EXECUTIVE DIRECTOR OF 
     LOGISTICS AND PORT OPERATIONS, MARYLAND DEPARTMENT OF 
          TRANSPORTATION, MARYLAND PORT ADMINISTRATION

    Mr. Thomas. Chairman Inhofe, Ranking Member Cardin, and 
members of the Committee, thank you for inviting me to 
participate in today's hearing focused on national freight 
movement.
    The Helen Delich Bentley Port of Baltimore is one of the 
busiest and most diverse seaports in the United States. We have 
six public marine terminals and 30 privately owned marine 
terminals located in our harbors.
    Of approximately 190 major U.S. ports, the Port of 
Baltimore ranks first and handles more cars and light trucks, 
farm and construction equipment, and imported sugar than all 
other major U.S. ports. In total, it ranks 9th among major U.S. 
ports for total dollar value of international cargo handled and 
14th for the total amount of international cargo tonnage.
    For the last several years, the Port of Baltimore has been 
ranked among the most productive container ports in the nation. 
The Journal of Commerce named us the fourth fastest growing 
port in North America in 2016.
    Overall last year, our port saw 31.8 million tons of 
international cargo cross its piers, valued at approximately 
$49.9 billion, and we expect to surpass both of those numbers 
this year.
    Today, the Port of Baltimore can accommodate some of the 
largest container ships in the world. We have the necessary 
infrastructure to welcome ships that can safely transit the 
newly expanded Panama Canal.
    The Port of Baltimore is the leading economic engine for 
the State of Maryland. We feel strongly that if freight is 
moving efficiently through our port, then our economy is moving 
efficiently as well. Business at our port generates over 13,600 
direct jobs, while about 127,000 jobs in Maryland are linked to 
port activities.
    Yes, we are having success now, but we also have hurdles 
that we need to clear.
    A pressing need is for double stack rail clearance in and 
out of our port. For those of you who aren't familiar, double 
stack rails is stacking of two international or domestic 
containers on top of one another on a rail car for 
transportation into or out of our major port. The ability to do 
this doubles capacity and creates operating efficiencies in the 
overall supply chain.
    The Class I railroads do not currently have that ability to 
handle double stacked trains in Baltimore. The CSX owned Howard 
Street Tunnel, located in the city of Baltimore, is a 122 year 
old freight tunnel that does not have the required clearances 
under its current configuration. Recently, new engineering 
technologies were developed that would bring the total project 
cost for increasing the clearances of the tunnel to less than a 
$500 million project.
    The Maryland Department of Transportation and CSX agreed to 
share $290 million of the total $445 million project cost. We 
then submitted, as a public-private team, for Federal funding 
for the balance of the project cost under the 2016 FASTLANE 
grant program. Despite very positive feedback from USDOT 
officials, we were unsuccessful. Still, we felt we have a 
strong application, and we are optimistic that we will be 
successful if we applied again in round two.
    The deadline to apply for funding under the now INFRA grant 
program was November 2nd, 2017. Only a few short days before 
that deadline, we were informed by CSX that they were pulling 
their support for the project. Without CSX, the owner of the 
asset, we could not move forward with the grant application. 
The ability to handle double stacked trains is not only 
critical to the Port of Baltimore's long term future, but it 
would create an improved intermodal connection both regionally 
and nationally.
    Currently, the Howard Street Tunnel is viewed by industry 
as a freight logistics bottleneck. In CSX's own words, the 
tunnel, with increased clearances, would remove trucks from 
highways and generate $640 million in benefits to 25 eastern 
States. An improved tunnel would mean a more efficient 
logistics network, creating more intermodal movements and 
supporting additional jobs.
    We must also be sure our waterways can handle these larger 
ships. Efficient freight movement through ports like Baltimore 
depend on adequate authority and funding for U.S. Army Corps of 
Engineers to complete channel maintenance and dredging. Channel 
dredging is the maritime equivalent of highway construction 
maintenance.
    We also must dispose of the dredged sediment responsibly. 
Congress has provided many allowances for this purpose, 
including beneficial uses of dredged sediment for ecosystem 
restoration. The Port of Baltimore, for example, has a 
congressionally authorized project known as Mid-Chesapeake Bay 
Island Project that uses dredged sediment from our 50 foot deep 
channels to restore natural habitat in the Chesapeake Bay. The 
project is currently awaiting preconstruction engineering and 
design funding.
    The Port of Baltimore urges you to support projects like 
this that tie directly to efficient freight movement. Like all 
WRRDA 2014 projects, it faces deauthorization in calendar year 
2021 if it does not receive Federal funds for construction.
    The Mid-Bay Island Project is critical to the Port of 
Baltimore's channels because it will provide approximately 40 
years of sediment placement capacity. I ask this Subcommittee 
to support report language in the next Water Resources 
Development Act to ensure continued authorization of the Mid-
Bay Island Project.
    In closing, the Federal Government plays a vital role in 
providing efficient freight flow performance. For ports to 
perform efficiently, Customs and Border Protection must be 
adequately funded and staffed. In 2015, the last time CBP was 
funded to hire additional staff, only 10 of 2,000 staffers were 
assigned to our seaports. This is a supply chain problem. Ports 
need this additional support of CBP to keep cargo moving. 
Without it, the flow of cargo through our nation's ports cannot 
perform at peak levels.
    Again, thank you for allowing me the opportunity to speak 
before the Committee.
    [The prepared statement of Mr. Thomas follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    Senator Inhofe. Thank you, Mr. Thomas.
    As was made obvious to us in our opening statements, 
Senator Cardin and I have been on this Committee since we have 
been in the Senate, and we were on the comparable committee in 
the House prior to that, so we have been through all of the 
reauthorization bills since 1987. So, I kind of needed to 
remember that one of our big problems used to be we had too 
much money in the Highway Trust Fund. That is not a problem 
anymore.
    So, we are looking at, and it was called to your attention 
by you, Mr. Spear, in my opening statement that we didn't have 
a freight provision in all these reauthorization bills until 
MAP-21 and then again in the FAST Act.
    Let's start with you. Is there anything you didn't say in 
your opening statement concerning the progress, the positive 
things you can attribute to the freight provisions in both MAP-
21 and the FAST Act?
    Mr. Spear. Well, I think both bills, Mr. Chairman, 
represent a significant step forward, largely because you are 
prioritizing, you are trying to look at a problem as it is 
growing. Alongside with the economy, we are seeing congestion, 
as I stated in my written and oral statement, $63 billion our 
industry loses each year to congestion. We know where the 
bottlenecks are. We track them every year; we report on them 
every year. That research is done in concert with our industry 
and the Department of Transportation.
    So, taking the authorization bills and prioritizing it, and 
putting a real good focus on freight, not just the program 
itself, but the grants, as well as the strategic plan, which, 
as I understand, in MAP-21 we are a little bit delinquent on in 
terms of reporting back to you on what that is supposed to look 
like. So, the Administration, I believe, needs to do more in 
terms of prioritization and building a strategic plan that 
allocates that money accordingly, and has the most impact in 
those bottleneck areas.
    But I think the last two authorizations were quite 
significant because they put the focus on where the problem is. 
Now we need to continue funding it, and begin really working 
with the agencies, Federal, State, and local, to get the 
maximum out of the requirements.
    Senator Inhofe. Mr. Policinski, you stated--and I didn't 
write it down, repeat it for me--the amount of applications 
that were made as opposed to the awards on the grant program.
    Mr. Policinski. Thirteen dollars in requests for every 
dollar.
    Senator Inhofe. Thirteen to one.
    Mr. Policinski. Thirteen dollars in requests for every one 
dollar available.
    Senator Inhofe. I see. I see. So, would you agree with the 
comments made by Mr. Spear on the things that were good in the 
program; it is just a matter that it is not adequate enough?
    Mr. Policinski. Well, it is monumental what you did. For 
the first time you recognized freight as being a primary driver 
of transportation spending. We believe that freight is the 
future. We are all part of a global economy for the first time. 
Our competitors are from all over the world, as are our 
business partners, bankers, or lawyers. The simple fact is that 
by concentrating on freight, you elevate projects from large 
projects in our region, like the Brent Spence Bridge, a $2.6 
billion project solely involved that is going to move freight 
dramatically for the nation, all the way down to smaller 
projects like double stacking, which we invest in as well.
    By bringing freight to the forefront, you make it easier 
for us to carry the case to the public that this type of 
spending must be done. So, what has been done is invaluable.
    Senator Inhofe. Well, I was Chairman of this Committee 
during MAP-21 and then the FAST Act, and I have to give credit 
where credit is due. The one who actually focused on this was 
Alex Herrgott on our Committee. Now he is in the White House, 
so he is transferring that initial concern that he has for 
freight that you will see, I think, in the legislation that 
comes forward.
    Mr. Parker, I have said that one of our best kept secrets 
in Oklahoma is our navigation way. Everybody knows about 
Baltimore and all of this, but we are there, too. And here is 
the problem that we have. We are considered to be a newer 
State, and we were; our State was in 1907, so we came along 
later in this.
    However, now we are passed our lifespan on all the locks 
and dams that we have. We are having really serious problems 
right now, particularly in two of our locks and dams, the 
deterioration that is taking place. One of the best things that 
happened is we put the provision in allowing users to 
participate financially. That doesn't happen in government very 
often, that they actually want to, and have to give permission 
to give the government money. That is essentially what we went 
through.
    So, we have come a long way on that, but we also have, on 
some of the far inland, like we are in Oklahoma, the lifespan 
has now already passed us. So, I am interested, you said in 
your testimony that a change in the cost share in Inland 
Waterways Trust Fund might be helpful. How would you suggest 
that would impact project delivery?
    Mr. Parker. Thank you, Senator. Using the example at 
Olmsted, when you made the policy change there that enabled the 
Corps to go in, and with adequate funding and proper planning, 
able to bring the Olmsted Lock and Dam $330 million in early, 
under budget, and under time, we can take the same policies. 
And if we are able to make this policy change that we are 
requesting, I think it will enable us to go ahead and reinvest 
in these aging locks and dams we have throughout the system, 
not only the Arkansas River, but throughout the country, and I 
think that is an important aspect to that to keep this 
infrastructure up to speed and up to date.
    Senator Inhofe. That is very good. I appreciate that.
    Senator Cardin.
    Senator Cardin. Well, again, thank you, Mr. Chairman. I 
thank all four of our witnesses.
    I think this Committee will continue to strengthen our 
authorization bills, including the movement of freight. But we 
are going to need to come together on the revenues necessary to 
support the type of infrastructure this country needs, which 
will help our economy and will create jobs.
    Mr. Parker, I appreciated your statement of your industry 
supporting increased diesel fees in order to get the necessary 
resources to deal with our inland waterways. I think we need to 
look at that type of an example to figure out how we can make 
sure we have adequate resources devoted toward infrastructure 
improvements. And it is intermodal; if you don't pay attention 
to all of the means, you are going to short change the 
efficiency factors of moving freight through America.
    Mr. Thomas, I want to talk about two issues that you did 
raise. First, let me talk about Mid-Bay for one moment. Mr. 
Parker also mentioned the fact that this Committee has been 
successful, at least recently, in passing biannual WRRDA bills. 
I hope we will have a chance to pass another WRRDA bill next 
year. We do that because we can then adjust some of the policy 
issues to keep projects on track.
    Mid-Bay I find to be very interesting. My predecessor, 
Senator Sarbanes, authored the Poplar Island authorization, 
which was unique for its time because it allowed for the 
availability of dredge material to be placed, which is not 
always without controversy. This was one that was supported 
because it was part of environmental restoration.
    So we not only were able to keep our shipping lanes dredged 
to the necessary level, but we were able to put the dredge 
material to use by reclaiming islands that used to exist in the 
Chesapeake Bay, and actually had habitation to be returned for 
the natural importance within the Chesapeake Bay of having 
these land masses to protect erosion, et cetera, and gives us 
the habitat for different species that are in the region. So, 
it was a win-win situation, very popular. Everybody likes it, 
and it was very efficient.
    Lo and behold, we recognized that Poplar Island will be at 
capacity, and we recognized that many years ago. We recognized 
it, I guess, with the Army Corps in 2009, when it produced the 
chief's report recommending the construction of Mid-Bay. Now, 
here is the interesting thing. They recognized that probably 
about 20 years before it would be ready to actually be 
functioning, because that is how long it takes; it is not 
something that can be done overnight.
    And that is, I guess, one of the points I wanted to raise, 
Mr. Chairman. You need lead time for a lot of these projects. 
And now we are running into a situation that, because it is 
inactive, it may not be further authorized. We are working to 
make sure, in fact, it continues. Congress not only authorized 
it, it is prepared to move forward on it.
    But how important is it that we stay on track for Mid-Bay?
    Mr. Thomas. Well, for Mid-Bay, every port job, every 
Baltimore job adds benefit to the national economy, and there 
would be substantial job losses and economic impact without 
this project if the dredging of the 50 foot authorized channel 
depth is delayed due to the acceptable dredge material 
placement site being put online. Without Mid-Bay, MPA expects 
that within 2 to 3 years of the most recent dredging event, the 
5 foot channel would shoal to a 45 foot depth, resulting in the 
following losses that we calculate: approximately 12,780 direct 
jobs, $800 million in personal wage and salary income, and $656 
million in business revenues, and $85 million in State and 
county municipal taxes that would be put at risk if we were not 
able to maintain our 50 foot channel.
    Senator Cardin. I thank you for that.
    Mr. Chairman, I want you to know that Mid-Bay, for the 
Maryland delegation, bipartisan delegation, this is our top 
priority, to make sure that we stay on track with Mid-Bay for 
the dredging of the Baltimore Harbor.
    You talked a little bit, also, about the double stacking at 
Howard Street. That is somewhat unique, that we have one of the 
few bottlenecks for double stacked trains through Baltimore. 
You gave numbers. You were ready for an INFRA grant request, 
and you had to pull it because CSX changed their views. That 
was the former CEO, who recently passed away. I take it you 
strongly support us moving forward if we can get CSX to move 
forward?
    Mr. Thomas. Yes, Senator. Thanks for that question. I think 
the Port of Baltimore, we are very well positioned today, due 
to our public-private partnership that we entered into back in 
2010. It gave us the ability to expand our Seagirt container 
terminal.
    And we are big ship ready. We have a very strong consumer 
market. We have the 50 foot deep channel. We have new container 
berths, new cranes. We have productive labor. The one box that 
we do not check off is the double stacked rail and having that 
ability to grow our cargo volumes through the Port of 
Baltimore. We estimate with the Howard Street Tunnel coming 
online, if we were successful, that would increase our volumes 
roughly 100,000 containers annually. They said 6,000 
construction jobs during that project and another 7,200 jobs 
linked to the Howard Street activity if it is completed.
    Senator Cardin. Thank you.
    Mr. Chairman, I would ask unanimous consent that Senator 
Harris, who was here a little bit earlier, that the letter from 
the Port of Los Angeles, including two charts, be made part of 
our record.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Inhofe. Senator Moran.
    Senator Moran. Mr. Chairman, thank you. Thank you to you 
and the Ranking Member for convening this hearing.
    Let me ask kind of a specific question, then a broader one.
    I will start with Mr. Spear.
    Good morning. You indicate in your testimony some doubts 
about the INFRA program and its impact on or the consequences 
in rural aspects. That program has a 25 percent set aside, and 
I wondered if you would expand on what we might be concerned or 
should be concerned about when it comes to rural projects.
    Mr. Spear. Well, I think prioritization is really pivotal, 
and the last two authorizations reflect that. I think making 
certain that we preserve the 1956 Federal Aid Highway Program 
that is largely centered on distributing funds down to State 
and localities, those States and localities are an integral 
partnership with the freight program priorities, but they are 
also receiving their funding, as well.
    I think what we are seeing, because funding is so strained, 
that everybody is competing for the same type of funds. The 
prioritization of the last two authorizations is helpful, but 
increasing the funding on top of what has already been done is 
really where we need to see more results I think will occur on 
the local level.
    So I think it is a funding issue. You have the framework in 
place, but putting more money into the programs is what is 
really going to see a lot of results at that level.
    Senator Moran. I appreciate your highlighting that. What we 
have discovered time and time again is that off system roads 
and bridges, which are so important, particularly in a State 
like Kansas or Oklahoma in getting grain to market, there just 
is no source of any revenue to rebuild, restructure 
infrastructure that lends itself, then, to trucking across the 
country. Getting it from farm to market has to begin someplace. 
It is a pretty rural place in the case of our State. So, thank 
you for that reminder.
    My broader question is, I use this as an opportunity to 
tout something that I think is important to the economic well 
being of our country and would have an impact upon all 
transportation modes, and that is NAFTA. The value of our 
ability to export commodities and manufactured goods across 
borders, particularly those to the north and the south of us, 
in my view, is a significant component certainly of how we earn 
a living in Kansas.
    I would highlight that I believe there is a sense out there 
that agriculture, in particular, will always be just fine 
because Mexico, Canada, and others will always want our 
agricultural commodities. I wish that was true. I hope that is 
true. I think when it comes to quality, no one can compete with 
us. But it is interesting to me to see the cost of freight and 
the differential between our ability to get grain to Mexico, as 
compared to Argentina or even Russia, when we use waterways and 
the Gulf to get grain to Mexico. We have a competitive, I don't 
know that I would say disadvantage, but the competition is 
great for us to be able to compete economically with grain 
coming from someplace else being shipped even as close to us as 
our neighbor to the south.
    So, I wanted to give you, first, the opportunity to tell me 
how, if NAFTA went away, what it might mean to the consequences 
to freight and the use of trucks or the use of our waterways, 
and second, the opportunity to highlight what you have been 
telling us in this hearing, the importance of investment in 
infrastructure so that we can compete in a global economy.
    And that could be you, Mr. Parker; you, Mr. Spear; or 
anyone. But if you could highlight for me the value of trade 
with Mexico and then, second, how important it is to be able to 
be competitive globally as a result of being able to compete 
with efficient infrastructure.
    Mr. Spear. I will quickly answer it. From our perspective 
in trucking, it is absolutely essential. I mean, to tweak or 
even walk away from our obligations under NAFTA since 1994. It 
is not a perfect agreement. Perfect agreements, I don't believe 
in that; I think there are always imperfections. It is trying 
to improve it in a manner that is reflective of the economy 
that we are finding ourselves in. But since 1994 trucks now 
move 76 percent of the NAFTA surface freight. Eighty-one 
percent of the border crossings with Mexico are moved by truck; 
71 percent with Canada.
    To tweak or walk away from it, we talk about the recession 
of 2008, it is not only a recession we would be looking at; it 
would be catastrophic to our economy. I also think our 
partnerships to the north and south, Canada being our largest 
trade partner in the world, would really jeopardize national 
security. Our ability to work with other countries on different 
levels, trade is an integral part of that, beyond the economic 
benefits. National security benefits, trucks are very much a 
part of that. We connect all the modes; we really make a lot of 
the freight move through connected means. And to walk away from 
those obligations or to really tweak them would have a dramatic 
effect on every State, including Kansas.
    Senator Moran. Thank you.
    Mr. Parker.
    Mr. Parker. Senator, with or without NAFTA, American 
agriculture is in intense competition around the world. We know 
what the Brazilians are doing and everything else. And of 
course, as you so correctly stated, our key is our interior 
infrastructure; our rivers, our rails, our highways, and our 
ports.
    I think the two things that we could do to make sure that 
we keep American agriculture competitive as it relates to the 
rivers is the policy change I suggested relative to the Inland 
Waterways Trust Fund, General Fund Obligations, and the use 
fund fee. That would be a huge step toward modernizing these 
aging locks and dams and making sure that we can keep American 
agriculture competitive in these world markets.
    The other thing is the Navigation Ecosystem Sustainability 
Program, NESP as it is frequently referred to, which is on the 
Upper Mississippi River, Illinois River. That is a key 
component going forward and we would hope that the Congress 
will direct some steps to start that funding to look at 
changing those locks to 1,200 foot locks to help agriculture in 
that area moving forward.
    Senator Moran. Mr. Parker, thank you very much. We don't 
have navigable waters in Kansas, at least that I can find, and 
we certainly didn't find them under WOTUS, but I would say 
that, as a Kansan, we care greatly about those waterways, those 
locks and dams; among several other methods, they are our 
connection to the rest of the world.
    Thank you.
    Mr. Parker. Thank you.
    Senator Inhofe. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman. I 
welcome the panel and I appreciate, when we have these 
infrastructure hearings, where the bipartisanship of this panel 
is so apparent and of this Committee is so apparent.
    Mr. Spear, the ATA has taken a position that it would 
support adding a price to gas and diesel to pay for additional 
highway road and related infrastructure; is that correct?
    Mr. Spear. That is correct, Senator.
    Senator Whitehouse. Mr. Policinski, does your organization 
take the same position?
    Mr. Policinski. We do in fact support increasing the gas 
tax.
    Senator Whitehouse. And one of the reasons for this I take 
from an article titled ATA President Pushes Federal Gas Tax 
Hike to Pay for Infrastructure Plan in which Mr. Spear is 
quoted as saying, ``Taxpayers are already paying dearly for the 
Government's inaction on fixing our nation's highways.'' Could 
you explain what you mean by that?
    Mr. Spear. Yes, I do, and your State is a good example, 
Senator, Rhode Island.
    Senator Whitehouse. We are actually one of the highest cost 
States in terms of car damage from bad road repair that there 
is out there.
    Mr. Spear. That is correct.
    Senator Whitehouse. We are coastal and old and so forth.
    Mr. Spear. It doesn't matter how big your State is, 
everybody is feeling it, and at least to the previous questions 
about States.
    Senator Whitehouse. So, you are referring to the hundreds 
of dollars that consumers have to spend in repairing their 
vehicles from bad roads that have been pretty well documented 
to this point.
    Mr. Spear. That is correct. I testified, oral and written, 
that $1,500, on average, per motorist is what they are spending 
on maintenance and congestion fees. States like Rhode Island 
probably wouldn't be having to tax Class A trucks to pay for 
their existing roads and bridges that we have already paid for 
through taxation.
    So now we are being double dipped to help pay for those 
roads and bridges because the Federal Government is not 
adequately funding the programs that it has created. So that is 
a problem. In contrast, that $340 billion through the 20 cent 
increase that I testified about, that is, on average, $100 per 
motorist for a year, per year for all roads and bridges in the 
country.
    Senator Whitehouse. So, by adding a little bit to the cost 
of fuel, you could make an investment in the quality of roads 
that would save far more than the motorist would experience 
from paying that added price in savings to them in wear and 
tear and damage and delay in their vehicles.
    Mr. Spear. Absolutely. That $100 extra from the 20 cent tax 
gives you all $340 billion in new revenue in the first 10 years 
for roads and bridges. You go out here to I-66, one way, 1 day 
on one road, they are now hitting you at $44 just to go a few 
miles. You have almost paid half of what you pay for a year 
through the taxation on the 20 cents we are talking about for 
all roads and bridges.
    Senator Whitehouse. While we are talking about roads and 
bridges and highways, let me ask you guys. We have seen that a 
lot of freight goes through Rhode Island, in and out of Rhode 
Island by rail, and it goes in and out by highway; I-95 goes 
right along the coast through Rhode Island. In Sandy, we saw I-
95 closed because it was flooded, and we have seen flooding of 
the Amtrak rail system. Particularly in Connecticut it is very, 
very high risk from sea level rise and from storm surge.
    Let me ask you guys, how alert do we need to be to the sea 
level rise and storm surge effects on coastal infrastructure?
    Chris or Mark, Mr. Spear or Mr. Policinski.
    Go ahead, Mr. Spear, let me ask you first.
    Mr. Spear. Well, I think it is certainly a concern. As 
infrastructure ages, you have to maintain it, but you also have 
to add to it. I mean, the economy demands it because of the 
demands that are on our industry.
    Senator Whitehouse. And if it faces new risks, we should 
prepare for the new risks, correct?
    Mr. Spear. Absolutely. As freight increases, you have to 
add infrastructure, shore it up.
    Senator Whitehouse. Mr. Policinski.
    Mr. Policinski. There is no way you can look at the fact 
that you just stated and say we shouldn't be prepared. We have 
to be prepared.
    Senator Whitehouse. So, let me turn to Mr. Thomas and our 
ports representative. First of all, let me thank you for the 
Port of Baltimore's participation in the North Atlantic Ports 
Association and your support for the marine planning efforts 
that help keep our ports efficient.
    And I would like to have their letter made an exhibit in 
this proceeding, if I may.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    
    Senator Whitehouse. Mr. Thomas, what we have heard from 
Norfolk Naval Station is that sea level rise is imperiling the 
very existence of that base, and that even if you raise the 
piers as the sea levels rise, it is really hard to go back and 
raise all the infrastructure behind the piers; the schools, the 
houses, the roads, the markets. It is an ecosystem, an economic 
ecosystem, and the military is now predicting that Norfolk 
Naval Station may be out of business in just a few decades.
    What is the lesson from this for our ports, our commercial 
ports like yours?
    Mr. Thomas. Thank you for that question and the recognition 
with NAPA. I was just able to attend the annual NAPA, meeting 
and it is on all ports' radar screens with how they are going 
to deal with sea level rise. And I can tell you the Maryland 
Port Administration, we have begun development of a port 
resiliency program for climate change that incorporates a 2010 
vulnerability assessment for all of our port infrastructures.
    So, currently, all port infrastructures that we build, new 
builds now, we have raised. We are at a plus 10, so we have 
raised it 2 feet above current elevations. Our newest 
automobile port at Fairfield Marine Terminal was built at plus 
10, taking into consideration what the studies are showing us 
with sea level rise. It is a real thing.
    Our newest project that we are working on now is at Dundalk 
Marine Terminal. We have rehabilitation of three berths there 
as well that we are going to raise to 10 feet. And to your 
point, you can raise the berth to 10 feet, but what happens 
behind it? So those are the things that we are struggling with 
now. We have a couple strategies. We are constructing 
stormwater vaults----
    Senator Whitehouse. I think out of courtesy to my 
colleagues, I should cut you off there. If you want to fill out 
your answer a little bit further, I more than welcome you to do 
it in writing. But we are now a minute over and there are other 
colleagues waiting, so, if you will forgive me, I will defer to 
my other colleagues. But I appreciate it, Mr. Thomas. Thank 
you.
    Senator Inhofe. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Chairman, first, I would like to submit the bio of Tim 
Parker, who is testifying here, and ask that it be made part of 
the record.
    Senator Inhofe. Without objection.
    Senator Shelby. I have a few observations here. I believe 
that the infrastructure, the ports, the intermodal centers, the 
river systems, the locks, everything that goes with it, our 
highways are at a critical time that we have to do something 
here in the Congress about. If we don't, we are going to 
cripple our economy, I believe, down the road. You have to move 
things. Everybody here knows this. You have to move freight. 
That is the key to it, whether it is through the oceans, in our 
ports, through the river systems, through the trucks, through 
the railroads. It works together.
    Mr. Chairman, I believe, and I have talked with you about 
this before, and a lot of them, this is ripe for a bipartisan 
infrastructure bill. It is going to cost money, and we have to 
figure it out, and we can't think small; we have to think big, 
as Chairman Inhofe has for years.
    Senator Inhofe. Let me interrupt you at this point and 
share what I have shared with you with this Committee. We have 
already been doing this.
    Senator Shelby. I know.
    Senator Inhofe. We have been over to the Democrat side; we 
have had private meetings on the floor. And we have been 
successful in the past.
    Senator Shelby. Absolutely.
    Senator Inhofe. In these areas, as well as the WRRDA bills. 
This will continue.
    Senator Shelby. It is ripe for a bipartisan push right now, 
I believe, Mr. Chairman, and so forth.
    Now, I would like to focus. I was very interested in the 
Port of Baltimore, which is very important to Senator Cardin 
and Mr. Thomas talking about. You are 50 feet deep, I 
understand, is that right?
    Mr. Thomas. Yes, sir.
    Senator Shelby. That is optimal. In Mobile, in Alabama, we 
are 45 feet, and we are trying to go to 50. If we go to 50, we 
will be one of the deepest ports on the Gulf. Everybody knows, 
and you spoke for it, what that means for the port, what it 
means for Baltimore on the East Coast and what it could mean 
for Mobile, Alabama, which is a busy port moving toward, more 
and more, like a freight of the world container. We used to be 
mainly a commodity, shipping commodities in and out, and we 
still do that. Most ports do.
    Mr. Parker, what is your observation? You have been 
chairman of the Port Authority; you and your family have been 
in the barge business a long time, transportation on water. You 
speak for the Water Council. How important is the 
modernization, all of it, highways, but speaking of the Port of 
Mobile, to the southeast and to the State of Alabama?
    Mr. Parker. Senator, it is critical, as you can imagine, 
not only for our balance of trade deficit, helping our export 
products move, but keeping our industrial plants competitive, 
modern as they bring raw materials in.
    You have championed the Port of Mobile and the deepening 
project there, and we know the benefits, as all ports do. 
Deeper drafts means lower ocean freight rates, more competitive 
products moving in and out. So, I applaud you for what you have 
done, and hopefully we will keep pushing in that direction and 
get that deeper channel.
    Senator Shelby. On behalf of the Truckers Association, I 
think a lot of your remarks have been spot on, but we all, 
whether it is Rhode Island, whether it is Alabama, whether it 
is New York, whether it is California, we are facing the same 
challenges, are we not, sir?
    Mr. Spear. Absolutely, Senator. Mobile, Baltimore. I was 
just up at the New Jersey-New York Port Authority giving a 
talk, and we were talking about how they have deepened and 
modernized technology and so on. They have really made that 
port very efficient. But if you can't move the boxes on the 
trucks, it doesn't matter how much money you invest in the 
port.
    Senator Shelby. That is right.
    Mr. Spear. Doesn't matter. So that intermodal connectivity 
is absolutely pivotal. That is what the heat maps I put in the 
testimony is to illustrate that it doesn't stop right there. 
Those trucks, those rails, those things go well beyond that 
port into many States, and the economy reflects that. The price 
of goods that we pay will reflect that. So, to the earlier 
point that Mr. Parker made, it is absolutely paramount to 
invest.
    Senator Shelby. The health of the economy is based on 
efficiency in the marketplace, isn't it?
    Mr. Spear. Absolutely.
    Senator Shelby. And transportation is so essential to 
moving goods and services.
    I thank all of you. I think we have gotten something out of 
this. I am a junior member of this Committee. I am on a lot of 
others, so I came on this Committee because I believe that we 
are going to do an infrastructure bill, that we need it 
desperately, and I want to work with the Chairman and Ranking 
on all of this. We have to do it and we have to do it soon, 
have we not, Mr. Chairman?
    Senator Inhofe. We do.
    Senator Shelby. Thank you.
    Senator Inhofe. Thank you, Senator Shelby.
    Senator Duckworth.
    Senator Duckworth. I want to thank the Chair and Ranking 
Member for convening today's hearing, and I want to thank our 
witnesses for participating in this very important 
conversation.
    Mr. Chairman, transporting freight efficiently and 
effectively is the linchpin of a prosperous economy. Few States 
play a greater role in our national freight system than my home 
State of Illinois. It is the epicenter of our rail network and 
our inland waterways system. To compete in a 21st century 
global marketplace, we must consider our transportation system 
as a competitive advantage. Unfortunately, this advantage is 
rapidly eroding.
    Mr. Policinski, broadly speaking, do you agree with the 
American Society of Civil Engineers that the United States has 
somewhere in the ballpark of about $2 trillion in 
infrastructure investment gap over the next 10 years?
    Mr. Policinski. Not only do I agree with it, but I hope 
that people would shout it from the rooftops over and over 
again. It is a driving force. The need is so great. We can't 
look the other way. In comments that Senator Shelby made about 
a bipartisan approach, it is very important to the country that 
we do this, not just economically solving this problem, but the 
idea that Congress can come together and address such an 
important issue that has such a direct impact on jobs is 
something that we cannot just turn from.
    The steps that this Committee has made and Congress has 
made to put freight forward have been dramatic and very 
important, but our job isn't done. People often say, well, we 
have to do more on freight because there will be 70 more 
million Americans by the year 2045. Well, there will be 2 
billion more people on this earth in 2045, and those people 
will be residing in countries and economies that will be 
competing for our businesses, for our jobs, for our income.
    So, the idea that we have a shortfall in how we fund our 
freight program, how we fund our highways and our ports is a 
dramatic statistic, and we cannot look away from it because 
literally freight is the future.
    Senator Duckworth. Thank you. Thank you. I couldn't agree 
with you more.
    Mr. Parker, with that $2 trillion gap, would you agree that 
our inland waterways system requires somewhere $110 billion 
over 10 years to rebuild our locks, levees, and dams?
    Mr. Parker. Well, these are fuel taxes that we pay. We 
generate about $110 million, $115 million per year, which is 
matched right now. So, we need to continue that. But if we do 
the policy change we talk about, we can get back to a $400 
million per year program. That will go a long way to getting 
our locks and dams, particularly our older locks and dams 
modernized, up to date, and make sure that we keep the industry 
in Illinois competitive in world markets.
    Senator Duckworth. I couldn't agree with you more. In fact, 
speaking to what my colleague, Senator Moran, mentioned, we had 
bumper crops the last several years in Illinois, but the 
southeastern United States bought corn and soybean from Brazil 
because they could get their crops into the United States 
faster than we could move crops down to Mississippi from Iowa 
and Illinois, and we still have silos that are filled with 
grain.
    My concern is that the President has secured, now, a $1.5 
trillion tax cut that is geared toward large corporations and 
the ultra-wealthy. I hope that we can finally see the details 
of his plan to rebuild our aging infrastructure. Unfortunately, 
the President and his allies prioritize the trickle down shell 
game over building up the middle class through the proven 
economic engine of infrastructure investment, and this is, to 
me, a really disturbing trend.
    Mr. Spear, your testimony suggests that the President's 
budget, a roadmap of his policy priorities that cuts $150 
billion from transportation spending, is misguided as it 
relates to infrastructure investment.
    Mr. Spear. I wouldn't go so far as to say it is misguided. 
It is certainly inconsistent with what we have been advocating. 
We go big, we go bold, and we are willing to pay more. We are 
already paying half the tab into the trust fund as the trucking 
industry, and we are only 4 percent of the vehicles on the 
road. But when you are moving 70 percent of the domestic 
freight in this country, that is our backyard. You invest in 
your backyard. That is our plant, so to speak. So, having good 
roads and bridges reduces the amount of maintenance, it reduces 
congestion costs. These are all measurable returns for raising 
the fuel tax. It hasn't been done since 1993. Had it been 
indexed, we wouldn't be having this discussion right now.
    And the lack of funding coming down to the States and 
localities to connect all the modes and to address the economic 
demand, States are picking up the slack, and they are doing a 
lot of things that are destructive to our industry. They impede 
our ability to grow and embrace interstate commerce and really 
serve consumers the way we would expect.
    Senator Duckworth. Thank you.
    In my last 12 seconds, I just want to say that during the 
campaign, President Trump repeatedly suggested that 
repatriating overseas corporate revenue could pay for robust 
infrastructure investments, and unfortunately, those revenues 
were exclusively used to buy down the corporate tax rate in 
this new tax bill and zero repatriate dollars would actually be 
set aside for infrastructure, and there is about $1 trillion 
there.
    The Republican tax bill also preserved a loophole that 
allows hedge fund and private equity managers to pay capital 
gains rates on their carried interest, which President Trump 
repeatedly pledged to eliminate. Responsible reforms that close 
this loophole would generate enough revenue to rehab every lock 
on the inland water system twice.
    Adding insult to injury, President Trump reportedly will 
rely on budget cuts to pay for his infrastructure proposal, 
cuts that will hurt Illinois families and businesses.
    So, to summarize, despite all the rhetoric, the President 
and his allies did nothing to plan for infrastructure 
investment in their budgets; in fact, they cut infrastructure 
spending by almost $200 billion. Their trickle down tax bill 
does nothing to build up infrastructure. And now the President 
plans to pay for his proposal on the backs of hardworking 
Illinois families while preserving handouts for Wall Street.
    I hope we can dispense with shell games next year. Forty-
four million jobs rely on our freight transportation network. 
We need to roll up our sleeves and get serious about how we are 
going to invest in our infrastructure and grow our economy, 
because countries we are competing against, like South Korea 
and Japan and China, they are making these investments and we 
are not, and we are going to get left behind when we should be 
dominating the world.
    So, with that, I yield back, Mr. Chairman.
    Senator Inhofe. Thank you.
    We will now hear from my partner in the McClellan-Kerr 
Navigation Way, Senator Boozman.
    Senator Boozman. Thank you very much.
    Speaking of that, Senator Inhofe mentioned the importance 
of that system and the wear and tear on the locks and dams, and 
he has been a tremendous champion, and we really do appreciate. 
The State of Arkansas really does appreciate your leadership in 
that area.
    Sometimes I don't think we are very smart in the way that 
we do things. Arkansas now has a 9 foot channel. We would very 
much like to go to 12 feet. We can do that with a relatively 
inexpensive expenditure. Certainly, that would make less 
openings, less wear and tear on the locks and dams in the sense 
you can carry about 40 percent more product on the same barge.
    Can you talk a little bit about that, just the importance 
of really thinking through these things, the importance of 
trying to get a situation where we can take the dollars that we 
have and spend those most efficiently?
    Mr. Parker. Well, you are absolutely right, Senator; a more 
efficient system, whether it is loading barges deeper or bigger 
locks or more efficient locks that lessen maintenance, that 
will help the whole system lower freight costs, make American 
agriculture, our industrial plants, steel mills, coal mines 
more competitive in the markets they have to serve. So, I think 
there are a lot of things we can do, and we appreciate the 
leadership that this Congress has and this Committee has with 
the last WRRDA bill. And if we can enact policy changes like we 
have talked about this morning, I am confident that the Corps 
of Engineers, given the resources, can manage these projects 
and effectively move this country forward.
    Senator Boozman. I was going to talk about the importance 
of the intermodal system, and the good news is you have heard 
from every member in the panel regarding that. Democrats, 
Republicans are united in getting our systems such that they 
work together, and that is so, so very important to our 
economy.
    Mr. Spear, let's talk about some specific things. I 
understand now that there is a significant shortage in truck 
parking spaces. Can you talk a little bit about that and if 
there is anything that we can help you with in that regard? 
What is the solution?
    Mr. Spear. It is a shortage. Within the last 5 to 7 years 
we have really begun to do a lot of research to capture the 
problem, and it is reflected on the lack of investment in our 
infrastructure. While we are maintaining a lot of the 
infrastructure, we are not adding more infrastructure.
    We are also adding a lot of regulatory requirements on our 
industry. One of them is the 30 minute rest break that came 
into effect in 2013. So now you have drivers, for good reasons, 
so that they are not fatigued, pulling over on shoulders, on 
on- and off-ramps, in undesignated places, putting themselves, 
their equipment, and the motoring public in jeopardy. That is 
elevating risk.
    The infrastructure simply does not accommodate the truck 
parking situation, yet we are requiring these drivers to be 
rested. So, it is a reflection. It is a regulation, it is an 
indirect, but it has an impact on our industry and the movement 
of freight. Because we are not investing to expand 
infrastructure, this is what you get.
    Senator Boozman. Very good. You mentioned increasing the 
fuel tax as a pay-for. Have you got any other ideas besides 
that that we could delve into?
    Mr. Spear. We definitely do. In the written testimony, I go 
into greater detail, but registration fees. States already 
collect them, so there is a very low administrative burden, 
that is $29 billion in extra money in addition to the $340 
billion in new moneys over the first 10 years you would receive 
in the 20 cent at the rack.
    We look for other ways to work with Congress and other 
modes to raise revenue, particularly for connectivity. We put 
some criteria in the testimony to be certain that it is 
consistent, whatever policy, to make certain that it is 
inexpensive to pay and collect, that it has a low evasion rate, 
that it be tied to highway use, not diverted to other causes, 
especially if we are paying into it. That is a sensitive point 
with our industry and in avoiding creating impediments to 
interstate commerce. So those criteria we would apply to any 
proposal. We would entertain anything that Congress puts on the 
table. Meeting those criterias, we would shape our support 
around that.
    We recognize that the fuel tax is antiquated, and probably 
beyond 10 years it is not going to capture the environment we 
are in. So, we would challenge Congress to really look beyond a 
10 year bill and start talking about, now, what we are going to 
do to collect fees to fund future infrastructure. You are going 
to have a lot more hybrids, a lot more alternative fuel 
vehicles on the road in the next 10, 20, 30 years, and the way 
that we raise revenue is currently not capturing that audience, 
and it is just going to make the problem worse.
    So, we would work with you to identify new means to raise 
revenue, but our Build America Fund is our centerpiece, and we 
think it is the wisest, most efficient, cost effective, lower 
than 2 percent administrative cost to put money into roads and 
bridges immediately, so that is what we would advocate.
    Senator Boozman. Thank you.
    Very quickly, Mr. Parker, we went without the big water 
resources bill, the WRDA bill, from 2007 to 2014. Can you talk 
about the importance of getting the WRRDA bills done on a 2 
year cycle so that we don't get ourselves in that situation 
again?
    Mr. Parker. Thank you, Senator. Yes, I think it is 
critically important that we are not constantly playing catch 
up; we stay ahead of the curve, we do the proper planning, do 
the studies, the chief reports done. So, I think that 2 year 
cycle is just critical in this whole process so we can look 
ahead and adapt to the changes and just not playing behind the 
curve, so to speak.
    Senator Boozman. Right.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Mr. Spear, I would like to ask you some questions relating 
to an important safety issue that I have been working on, 
preventing underride crashes. An underride crash is when a car 
slides under the body of a large truck, such as a semi-trailer, 
during an accident. When these accidents happen, a car's safety 
features are not able to protect passengers because most of the 
car slides under the trailer and the truck crashes straight 
through the windows and into passengers. The passengers in 
their car often suffer severe head and neck injuries, including 
decapitation, on impact with the truck. These accidents are 
fatal even at low speeds.
    This past summer, four individuals were killed when their 
car slid underneath a disabled milk tanker that had swerved to 
avoid a deer in New York State. Two cars crashed into the truck 
and continued to slide completely under the truck. All four 
people were pronounced dead at the scene.
    I recently introduced a bill to require trailers to be 
fitted with underride guards so that the car could no longer 
slide underneath the truck during an accident. Are you aware 
that the National Transportation Safety Board has recommended 
that trucks be equipped with side guards and improved rear 
guards since 2014?
    Mr. Spear. Yes, ma'am.
    Senator Gillibrand. And are you aware that the Insurance 
Institute for Highway Safety petitioned the U.S. Department of 
Transportation to require stronger rear guards on trucks after 
studying how guards that comply with the current Federal 
regulations often fail and result in serious injury or death?
    Mr. Spear. I am, Senator.
    Senator Gillibrand. And are you aware that the Insurance 
Institute for Highway Safety performed a successful side 
underride guard at 40 miles per hour?
    Mr. Spear. I am, Senator.
    Senator Gillibrand. And would providing a weight exemption 
for the weight of adding an underride guard make it easier for 
industry to add this safety measure?
    Mr. Spear. Most definitely, Senator.
    Senator Gillibrand. And do you think this is a safety 
measure we should push forward with?
    Mr. Spear. I wouldn't dismiss it. And I applaud you. One 
fatality is too many. Forty thousand a year is just 
inexcusable. We need to be doing more. One area that I would 
ask that you press NTSA on at DOT is to speed up their analysis 
of this and report back on the weight, the added weight of the 
underride guard to be sure that it does not compromise the 
integrity of the trailer itself.
    We are talking about 80,000 pounds in these trailers. You 
are adding more weight underneath it. You don't want to be 
trying to solve a safety problem by creating another one. So, I 
would very much like to have that report, that data back that 
validates that the added weight of the underguards would not 
compromise the integrity of the trailer itself.
    Senator Gillibrand. I think the weight is not that much. I 
think it is about 800 pounds a panel. So relative to the 
overall weight, it is not a lot. And from what I understand, 
the only opposition was because it just means they carry less 
freight. So, they are putting money in front of safety.
    Mr. Spear. Well, your exemption is appreciated.
    Well, I think it would also add to the cost of the 
requirement. If you are saying that we have to reduce freight 
to pay for the added weight of the underguards, that is going 
to be a massive figure. We are talking millions of trailers, so 
that is a big number. So, I think the exemption is well taken.
    Senator Gillibrand. If cost is the only issue, those are 
the kinds of things Congress can address.
    Mr. Spear. Well, I am saying that the added weight, making 
certain it does not compromise the integrity of the trailer, if 
it is not a problem, then why not report on it?
    Senator Gillibrand. OK.
    Mr. Spear. Thank you.
    Senator Gillibrand. Separate topic. With regard to highway 
infrastructure, leasing highway infrastructure to private 
entities, in your opinion, who would benefit from selling or 
leasing our highway infrastructure to private entities?
    Mr. Spear. That is really hard to say. Certainly not my 
industry, and certainly not the American people. We are 7.4 
million strong. We are 1 in 16 jobs in the U.S., and we are the 
top job in 29 States. We are paying half the tab into the trust 
fund, and we are moving 70 percent of the freight. If we did 
the 20 cents on the gallon at the rack, that is $340 billion in 
extra money that you all can spend on these priorities, on the 
great framework that you put together.
    We are paying half the tab, and we are willing to pay more. 
I think that is the best means of doing it. We believe that 
tolling, particularly on existing roads and bridges, these 
schemes are extortion. They are double dipping. When we are 
happy to pay more, and we are offering it up here, I would 
recommend you take that; that is a good deal.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Cardin, do you have any further comments to make?
    Senator Cardin. I just want to thank the panel. I think 
this has been an extremely important hearing, and I just would 
underscore the point that Senator Shelby made and I think our 
witnesses, that we have to find a bipartisan way to get the 
revenues we need in a package that will allow us to move 
forward with infrastructure in this country, and we have to do 
that in the tradition of this Committee.
    Senator Inhofe. Well, I thank you, and let me just give the 
panel our assurance that is going to happen. I can remember 
during the last year, year before last, when we would have our 
meetings, when I would report on what this Committee is doing, 
I would always say, now from the Committee that really does 
things. And we are going to continue to be the Committee that 
really does things.
    It has been very helpful to have all of your input in this 
Committee. We thank you very much for coming.
    [Whereupon, at 12:02 p.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
                         [all]
</pre></body></html>
